No. _______
October Term, 2021
In the

Supreme Court of the United States
Mauricio Melendez,
Petitioner,
v.
Renee Baker, Warden, et al.,
Respondents.
On Petition for Writ of Certiorari to the
Nevada Supreme Court
Motion for Leave to Proceed In Forma Pauperis

Rene Valladares
Federal Public Defender,
District of Nevada
*C.B. Kirschner
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
CB_Kirschner@fd.org
*Counsel of Record for Petitioner

Pursuant to Supreme Court Rule 39.1, Petitioner Mauricio Melendez
requests leave to file the attached Petition for Writ of Certiorari without
prepayment of costs and to proceed in forma pauperis. Mauricio has been granted
leave to do so in state court and federal court. In state court, counsel were appointed
to represent Melendez at trial, on direct appeal, and in state post-conviction
proceedings. In his federal habeas corpus proceedings, the United States District
Court granted appointed the Federal Public Defender to represent Melendez. See
Melendez v. Neven, No. 2:16-cv-01003-JAD-CWH, ECF No. 10 (Dist. Nev. July 28,
2016). Melendez has attached a declaration in compliance with 28 U.S.C. ยง 1746.
Dated August 5, 2021.
Respectfully submitted,
/s/ CB Kirschner
C.B. Kirschner
Assistant Federal Public Defender

